                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I07060019                                                            11           Page 1 of 1



         This investigation of an NSF award' was opened pursuant to a proactive review of
         awards that include international collaboration. The purpose of the review was to ensure
         compliance with applicable laws, regulations, and award conditions.
                                                                                                     ,
         The investigation, which included a review of financial information and supporting
         documentation from the Awardee, a ~ n i v e r s i t gresulted
                                                              ,        in finding that the University has some
         problems with their accounting and financial record keeping. The University needs to properly
         track their costs and post these expenses to the appropriate accounts.

         There was no evidence found of fraud or wrongdoing. Therefore, no further investigative efforts
         are required in this case.

         Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
